Daniel S. Alcorn
Attorney-at-law

1335 Ballantrae Lane
McLean, VA 22101
tel. (703) 442-0704
July 22, 2020

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re: Assassination Archives and Research Center v. Central Intelligence Agency
S.Ct. No. 19-1273
Dear Mr. Harris:
Petitioner Assassination Archives and Research Center (“AARC”) opposes delay in this case
because a conference date has been set for September 29, 2020, and AARC in part seeks
consolidation of this case with S,Ct. No. 19-547, Fish and Wildlife Serv., et al. v. Sierra Club,
Inc., which presents the same or similar issues.
AARC intends to file a reply to CIA’s response, and CIA’s extension date request allows too
little time for a reply before the conference date. In addition, the Fish and Wildlife Serv. case is
being briefed now and delay in this case could disrupt the schedule in that case. For these
reasons AARC opposes the requested extension.

Sincerely,
/s/
Daniel S. Alcorn
Counsel for Assassination Archives and
Research Center

Cc: Attached Service List

19-1273
ASSASSINATION ARCHIVES & RESEARCH CENTER
CIA

JEFFREY B. WALL
ACTING SOLICITOR GENERAL

Solicitor General of the United States
Room 5616, Department of Justice,
950 Pennsylvania Ave., N. W.,
Washington, DC 20530-0001
Ph. 202-514-2000
SupremeCtBriefs@USDOJ.gov

